       OFFICE OF JUSTICE PROGRAMS
        OFFICE OF JUVENILE JUSTICE
      AND DELINQUENCY PREVENTION
          GRANT AWARDED TO THE
IMPROVED SOLUTIONS FOR URBAN SYSTEMS, INC.
              DAYTON, OHIO




         U.S. Department of Justice
       Office of the Inspector General
                Audit Division


         Audit Report GR-50-10-003
                 March 2010
                 OFFICE OF JUSTICE PROGRAMS
   OFFICE OF JUVENILE JUSTICE AND DELINQUENCY PREVENTION
                   GRANT AWARDED TO THE
        IMPROVED SOLUTIONS FOR URBAN SYSTEMS, INC.
                        DAYTON, OHIO

                             EXECUTIVE SUMMARY

       The Office of the Inspector General (OIG), Audit Division, has
completed an audit of the Improved Solutions for Urban Systems (ISUS),
Inc., grant number 2008-JL-FX-0472, in the amount of $505,307 awarded
by the Office of Justice Programs (OJP), Office of Juvenile Justice and
Delinquency Prevention (OJJDP), under the FY 2008 Earmarks Programs. 1
The purpose of this grant was to serve 50 court-involved youth and to
provide them with education and career preparation in its charter school
operation for future employment in the areas of construction,
manufacturing, and healthcare. The grant funded items such as wages,
fringe benefits, student stipends, supplies, and travel expenses.

        ISUS is located in Dayton, Ohio, which is situated within the Miami
Valley, just north of the Cincinnati metropolitan area. ISUS, a not–for-profit
organization, was founded in 1992 to transform the lives of out-of-school
and court-involved youth by offering them a life-changing perspective
including schooling. In 1999, ISUS created its first of three Ohio
Department of Education charter high schools for the re-entry of court-
involved youth aged 16 through 21. The schools provide instruction in the
areas of manufacturing, construction, and healthcare. Each of these three
ISUS Institutes offers an 18 to 30-month career-centered course of study
and opportunities for high school dropouts to earn a high school diploma
(rather than a GED), college credits, industry-recognized certifications, job
skills, and real-world work experience.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant; and to determine program performance and

      1
         The grant awarded to ISUS was funded under the FY 2008 Earmarks Programs and
was the result of a congressional earmark under the authority of the OJJDP Act of 2002,
42 USC 5665-5667. The OJJDP FY 2008 Earmarks Programs provided grants, cooperative
agreements, and other assistance to organizations identified in the Joint Explanatory
Statement to Accompany Consolidated Appropriations Act [2008], 153 Cong. Rec. 193
(2007).

                                        - -
                                          2

               DRAFT REPORT – NOT FOR PUBLIC RELEASE
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment; (2) drawdowns;
(3) grant expenditures, including personnel costs and indirect costs;
(4) budget management and control; (5) matching costs; (6) property
management; (7) program income; (8) financial status and progress
reports; (9) grant requirements; (10) program performance and
accomplishments; and (11) monitoring of contractors and subgrantees.
However, we determined that property management, program income, and
monitoring of contractors and subgrantees were not applicable to this grant.
We therefore performed no testing in these areas. As shown in the table
below, ISUS was awarded a $505,307 grant.

                 TABLE 1. OJJDP GRANT AWARDED TO
            IMPROVED SOLUTIONS FOR URBAN SYSTEMS, INC.
                                       AWARD       AWARD
           GRANT AWARD               START DATE   END DATE     AWARD TOTAL

         2008-JL-FX-0472             07/01/2008   06/30/2009   $505,307
      Source: Office of Justice Programs

       We found that the grantee’s drawdowns, non-personnel expenditures
charged to the grant, budget management and control, matching costs, and
its financial status reports were all satisfactory. However, we determined
that unapproved personnel and indirect costs were charged to the grant. As
a result, we identified $241,527 in dollar-related findings. Specifically,

  •    The grantee charged the grant $133,468 in wages and $20,371 in
       fringe benefits for three Counselors, a Security Officer, and a Crew
       Leader not shown in the approved grant budget; and

  •    The grantee charged the grant $87,688 in indirect costs for the
       unapproved positions.

      These items and other deficiencies are discussed in detail in the
Findings and Recommendations section of the report. Our audit objectives,
scope, and methodology are discussed in Appendix I.




                                           - -
                                             3

                 DRAFT REPORT – NOT FOR PUBLIC RELEASE
